HHS/OIG, Audit - "Review of Rhode Island's Medicaid Nonemergency
Transportation Costs for March 1, 2004, Through May 31, 2005," (A-01-06-00007)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Rhode Island's Medicaid Nonemergency Transportation Costs for March 1, 2004,
Through May 31, 2005," (A-01-06-00007)
March 20, 2008
Complete
Text of Report is available in PDF format (1.48 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State agency did not claim Medicaid
nonemergency
transportation (NET)
costs in accordance with Federal and State requirements.
Specifically, the State agencys purchase of monthly bus passes was not cost
effective based on beneficiaries use of medical services.  From March 2004
through May 2005, bus pass recipients averaged 1.5 medical services per month
for months in which they received a pass.  The less costly purchase of 10-ride
bus passes could have saved at least $9.8 million ($4.9 million Federal share)
during our 15-month audit period.  In addition, the State agencys claim
included the costs of approximately 8,700 bus passes for beneficiaries of two
non-Medicaid State programs.  As a result, the State agency overstated its claim
for NET costs by $386,452 ($193,226 Federal share).
We recommended that the State agency (1) either refund $4.9
million (Federal share) for NET costs claimed for monthly bus passes or provide
documentation to show that the passes were the most cost-effective means of
providing NET; (2) refund $193,226 (Federal share) in unallowable NET costs
claimed for beneficiaries of two non-Medicaid State programs; (3) in the absence
of documentation demonstrating that monthly bus passes were the most
cost-effective means of providing NET to Medicaid beneficiaries, review NET
costs for bus passes reimbursed after our audit period and refund the excess NET
costs to the Federal Government; and (4) establish policies and procedures to
ensure that it complies with Federal requirements and the State plan for
claiming NET costs.  The State agency agreed with our second recommendation but
disagreed with the other recommendations.  Nothing in the State's response
has caused us to alter our recommendations.